19- 236
IN THE

6kle supreme Court of the United t*tates
ACHASHVEROSH ADNAH AMMIYHUWD,

Petitioner,
v.
MICHAEL R. POMPEO, UNITED STATES SECRETARY OF
STATE, ET AL.,

Respondents.
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit
PETITION FOR REHEARING
ACHASHVEROSH ADNAH
AMMIYHUWD
IN PROPRIA PERSONA
"TRANSIENT FOREIGNER"
In c/o 2700 Valparaiso St. P.O.
Box 1542, Non-Domestic
Without U.S., 28 U.S.C.1746(1)
Valparaiso, Indiana Zip Code
Exempt [DMM 602 1.3e(2)]
Phone — (443) 350-4567
ACHASHVEROSH@HOTMAIL.COM

BIBLICAL AMBASSADOR

Israelite by blood, Dual American National Republic
by birth 8 U.S.C. 1101(a)(14)(21); 8 U.S.C. 1452 &
101(a)(21) of the Immigration and Nationality Act
(INA)

1

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES

ii

GROUNDS FOR REHEARING

1

THE COURT SHOULD GRANT
REHEARING BECAUSE THERE IS A
CLEAR CIRCUIT SPLIT AND
JUSTICE REQUIRES THIS COURT
TO RESOLVE THE SPLIT

4

THE COURT SHOULD GRANT REHEARING
AND CERTIORARI HERE BECAUSE THE
GOVERNMENT WILL LIKELY NOT SEEK
REVIEW OF THE SEVEN CIRCUIT
DECISION
6
CONCLUSION
CERTIFICATE OF COMPLIANCE
CERTIFICATE OF PARTY UNREPRESENTED BY
COUNSEL
REINCORPORATION OF APPENDIX

9

11

TABLE OF AUTHORITIES
Page(s)
Cases:
Abbott Labs. v. Gardner,
387 U.S. 136 (1967)

7

Barron v. City of Balt., 32 U.S. 243, 247 (1833)

2

Bolling v. Sharpe, 347 U.S. 497 (1954)

2

California Retail Liquor Dealers
Ass'n v. Midcal Aluminum, Inc.,
445 U.S. 97, 105 (1980))

7

Commuter Transportation Systems,
Inc. v. Hillsborough County Aviation Authority.
801 F.2d 1286 (11th Cir. 1986)

6, 7

Dred Scott v. Sanford,
60 U.S. 393, 395 (1857)

1

Flynn v. United States, 75 S. Ct. 285 (1955)

3

FTC v. Ticor Title Insurance Co.,
504 U.S. 621, 633 (1992)

7

North Carolina State Board, 135 S. Ct. at 1112

7

Printz v. United States, 521 U.S. 898 (1997)

2

Martin v. Memorial Hospital at Gulfport,
86 F.3d 1391 (5th Cir. 1996)

6, 7

111

Rubin v. Islamic Republic of Iran,
637 F.3d 783, 789 (7th Cir. 2011)

4, 6

Town of Hallie v. City of Eau Claire,
471 U.S. 34, 46-47 (1985))

7

Amendments
First

4

Fifth

2

Ninth

2, 4, 6

Tenth

2, 4, 6
2

Fourteenth
Statute
5 U.S.C. §§ 702-706

8

28 U.S.C. § 1746

3, 5, 8
Rule

R. 44.2

1
Doctrine

Collateral-Order Doctrine

1, 5, 6, 8

Miscellaneous
Administrative Procedure Act

6

iv
Office of the Secretary; Exercise of Authority
Under the Immigration and Nationality Act,
84 Fed. Reg. 17227 (Apr. 24, 2014)

2

International Covenant
Economic, Social and Cultural Rights
under Article 3

1, 2, 3, 5

Civil and Political Rights under Article 5

1, 2, 3, 5

Elimination of All Forms of Racial Discrimination
under Article 14
1, 2, 3, 5
Torture and Other Cruel, Inhuman or Degrading
Treatment under Article 22
1, 2, 3, 5
International Criminal Court (ICC)
Roman Statute and Articles

8

1
Pursuant to Rule 44.2, Achashverosh Adnah
Ammiyhuwd (Achashverosh), respectfully petitions
for rehearing of the Court's order denying certiorari
in this case.

GROUNDS FOR REHEARING
Appendix is reincorporated into this petition for
rehearing of an order denying certiorari that may be
granted if a petitioner can demonstrate "intervening
circumstances of a substantial or controlling effect."
R. 44.2. Here in this case there are intervening
circumstances, substantial and controlling effect of
International Covenant on Economic, Social and
Cultural Rights under Article 3; International
Covenant on Civil and Political Rights under Article
5; International Convention on the Elimination of All
Forms of Racial Discrimination under Article 14;
Torture and Other Cruel, Inhuman or Degrading
Treatment under Article 22 violations with a circuit
split among the Fourth, Fifth, Sixth, Seventh, Ninth,
and Eleventh Circuits on the very question presented
in the Achashverosh petition: Is an order denying
state-action immunity; sovereign immunity; foreign
sovereign immunity; are immediately appealable
under the Collateral-Order Doctrine?
This International Covenant on Economic, Social
and Cultural Rights; International Covenant on Civil
and Political Rights; International Convention on the
Elimination of All Forms of Racial Discrimination;
violation of Torture and Other Cruel, Inhuman or
Degrading Treatment under Article with a Circuit
split creates substantial nationwide uncertainty as

2
to a law this Court has said pushes the very limits of
constitutional authority and puts the sovereign states
or sovereign Ninth and Tenth Amendments to the
United States of America Constitution national
republic people at the mercy of regulating agencies
and their officials. This Court has repeatedly
chastised the federal government for overreaching
and abusing its (CHECKS and BALANCES) power on
Economic, Social and Cultural Rights; Civil and
Political Rights; All Forms of Racial Discrimination;
Torture and Other Cruel, Inhuman or Degrading
Treatment against the sovereign people but with little
effect. See Bolling v. Sharpe, 347 U.S. 497 (1954)
(holding that the Due Process Clause of the Fifth
Amendment incorporates the Equal Protection Clause
of the Fourteenth Amendment" and raises
constitutional questions); Dred Scott v. Sanford, 60
U.S. 393, 395 (1857), superseded by constitutional
amendment, U.S. Const. amend. XIV ("holding that
the people are citizens/nationals of the several states
of the union under due process and equal
protection."); Barron v. City of Balt., 32 U.S. 243, 247
(1833) (holding that the constitution was ordained
and established by the people of the United States for
themselves, for their own government, and not for the
government of the individual states."); Printz v.
United States, 521 U.S. 898 (1997) (holding that the
federal government violated the Tenth Amendment
when Congress required state and local officials to
perform background checks on people buying guns.)

3
Under the Immigration and Nationality Act, the
US Department of State, Secretary of State through
the Passport Agency Centers and officers asserts
regulatory authority over the acceptance,
adjudication, and issuance of US passports in the
United States of the federal territories, possessions,
commonwealths, areas or enclaves within a State
pursuant to 28 U.S.C. § 1746(2), binding on all
parties, subject to judicial review under the
Administrative Procedure Act, 5 U.S.C. §702-706 et
seq. See Office of the Secretary; Exercise of Authority
Under the Immigration and Nationality Act, 84 Fed.
Reg. 17227 (Apr. 24, 2014). It is imperative,
therefore, that this Court safeguards the right of
American National Republics inside the United
States of America pursuant to 28 U.S.C. § 1746(1)
and internationally at any, and at all times to
challenge the government's erroneous intentional,
capricious, arbitrary and discriminative application
of the law denying the right to a dual sovereign
nationality and United States of America passport in
violation of International Covenant on Economic,
Social and Cultural Rights; violation International
Covenant on Civil and Political Rights; violation of
International Convention on the Elimination of All
Forms of Racial Discrimination; violation of Torture
and Other Cruel, Inhuman or Degrading
Treatment, by reconsidering the decision to deny
certiorari in Achashverosh Adnah Ammiyhuwd. As
this Court has stated, the right to petition for
rehearing of an order denying certiorari" is not to be
deemed an empty formality as though such petitions
will as a matter of course be denied. "Flynn v. United

4
States, 75 S. Ct. 285, 286 (1955)(Frankfurter, J., in
chambers).
I
THE COURT SHOULD GRANT REHEARING
BECAUSE OF A CLEAR CIRCUIT SPLIT
AND JUSTICE REQUIRES THIS COURT TO
RESOLVE THE SPLIT
Under the Immigration and Nationality Act,
Passport and Visa Agency Centers are charged with
the administration and the enforcement of the
provisions of this Act and all other immigration and
nationality laws relating to the powers, duties and
functions of diplomatic and consular officers of the
United States, relating to the granting or refusal of
visas; passports, and the determination of sovereignty,
nationality and immunity of a person not in the United States
subject to federal regulation. By contrast, the Fourth,
Sixth and Ninth Circuits—and now in this case, and
against its own holding in Rubin v. Islamic Republic
of Iran, 637 F.3d 783, 789 (7th Cir. 2011) (holding
that foreign sovereign immunity decisions are
immediately appealable), the Seventh Circuit in
Achashverosh Adnah Ammiyhuwd hold that a First,
Ninth, and Tenth Amendments man, woman or child
dual American national republic appealing the
interlocutory denial of his biblical Ambassador
status, his dual Israelite nationality by blood,
American national republic nationality by birth and
application for a United States of America passport
through a 17th century English common law verified

5
writ of habeas corpus (used for relief from slavery),
complaint for declaratory and injunctive relief, while
asserting personal immunity (ratione personae),
functional immunity (ratione materiae) and stateaction immunity because of being held as a slave in
the federal territories and enclaves of the United
States* and/or the United States** within the States
pursuant to 28 U.S.C. § 1746(2) as applied is not
immediately
appealable.
This
conclusion
substantially affects dual American national
republics throughout the Country of the United
States of America within the several states of the
union pursuant to 28 U.S.C. § 1746(1) from using the
regulated portion of their blood/birth nationalities
and identity without federal permit. According to
these Circuits, a sovereign Ninth, and Tenth
Amendments man, woman or child cannot appeal an
interlocutory order denying sovereign immunity
under the Collateral-Order Doctrine, effectively
prohibiting the review of the Passport Agency
Centers and officers' intentional, capricious,
arbitrary, discriminative and ultra vires actions
under the Administrative Procedure Act as final
agency action implementing Slavery, Torture and
Other Cruel, Inhuman and Degrading Treatment.
In this case, the Petitioner, Achashverosh Adnah
Ammiyhuwd, sent a lawful seven (7) page United
States of America Passport Application Attachment
along with his passport application to be completed
by the passport agency center and its officers to
explain any reason for sending any correspondence
denying his passport application but refused to
complete the lawful seven (7) page United States of

6
America Passport Application Attachment and to
give any reason for the rejection of his political
biblical Ambassador status, sovereign Israelite blood
nationality and dual American national republic by
birth nationality on his United States of America
passport. Denying him his dual nationalities. App.
48a-87a.
II
THE COURT SHOULD GRANT REHEARING
AND CERTIORARI HERE BECAUSE THE
GOVERNMENT WILL LIKELY NOT SEEK
REVIEW OF THE FIFTH AND ELEVENTH
CIRCUIT DECISIONS
Michael R. Pompeo, United States Secretary of
State et al is unlikely to seek certiorari in the Martin
v. Memorial Hospital at Gulfport, 86 F.3d 1391 (5th
Cir. 1996) and Commuter Transportation Systems,
Inc. v. Hillsborough County Aviation Authority, 801
F.2d 1286 (11th Cir. 1986) cases because of the
likelihood that this Court would uphold the
decisions. Unlike the fiction relied on in the Fourth,
Sixth, Seventh and Ninth Circuits that denial of
state-action immunity is not immediately appealable
—contrary to the Seventh Circuit holding in Rubin v.
Islamic Republic of Iran, 637 F.3d 783, 789 (7th Cir.
2011) that foreign sovereign immunity decisions are
immediately appealable, the Fifth and Eleventh
authoritatively
Circuit
meticulously
and
demonstrated that denial of sovereign immunity is
immediately appealable under the Collateral-Order
Doctrine and this Court's precedents.

7
The Fifth and Eleventh Circuit courts have held
in Martin v. Memorial Hospital at Gulfport, 86 F.d
1391, 1391, 1397 (5th Cir. 1996); Commuter
Transportation Systems, Inc. v. Hillsborough County
Aviation Authority, 801 Fss.2d 1286, 1289-1290 (11th
Cir. 1986) that state-action immunity, like sovereign
immunity and qualified immunity, is an immunity
against suit rather than a mere defense against
liability. They have accordingly concluded that if a
denial of state-action immunity cannot be appealed
immediately, then in effect it cannot be appealed at
all. Once a private natural spiritual, person of a
kingdom/state has been subjected to the burdens of
litigation beyond a motion to dismiss, the immunity
against suit has been irredeemably lost; no
subsequent appeal can restore it. Private entities
(and public entities that are not electorally
accountable) can receive state-action immunity if
they act pursuant to a clearly articulated state policy
and are actively supervised by the state. See FTC v.
Ticor Title Insurance Co., 504 U.S. 621, 633 (1992)
(citing California Retail Liquor Dealers Ass'n v.
Midcal Aluminum, Inc., 445 U.S. 97, 105 (1980));
North Carolina State Board, 135 S. Ct. at 1112
(citing Town of Hallie v. City of Eau Claire, 471 U.S.
34, 46-47 (1985)). The Ind. Const. art. I, §1, provides,
"that all people are created equal; that they are
endowed by their CREATOR with certain inalienable
rights; that among these are life, liberty, and the
pursuit of happiness; that all power is inherent in
the people; and that all free governments are, and of
right ought to be, founded on their authority, and
instituted for their peace, safety, and well-being."

8
The ultimate questions in this case is whether
Achashverosh can appeal denial of sovereign
immunity, verified writ of habeas corpus with facial
attack on federal statute 28 U.S.C. § 1746 for
vagueness and overbreadth as applied, for freedom
from slavery, declaratory and injunctive relief
without directly addressing injunctive consequences,
mandating exclusions of a covenant to protect
substantive procedural due process and equal
protection under the Administrative Procedure Act, 5
U.S.C. 702-706 laws are immediately appealable
under the Collateral-Order Doctrine. These are
purely legal questions of erroneous intentional,
capricious, arbitrary Economic, Social and Cultural
Rights; Civil and Political Rights; on the Elimination
of all forms of Racial Discrimination; and Torture
and Other Cruel, Inhuman or Degrading Treatment
violations that can be resolved here and now without
the unnecessary delay of another sovereign
immunity collateral-order doctrine case coming to
this Court or the intervention of the United Nations
and/or the International Criminal Court (ICC) under
Roman Statute and Article 2, 7, 15, months or years
from now. This is important because in this case, the
denial of certiorari is effectively a decision on the
merits.
All national and local remedies are exhausted.
Unless Achashverosh has the ability to challenge the
admittedly erroneous sovereign immunity CollateralOrder Doctrine in court, Achashverosh will never
have a practical means of seeking national and local
redress. Neither Achashverosh nor thousands of

9
similarly situated dual American national republics
should be subject to such a blatant injustice that is
within this Court's power to correct. This case is the
paradigmatic example of Economic, Social and
Cultural Rights; Civil and Political Rights;
Elimination of all forms of Racial Discrimination;
and Torture and Other Cruel, Inhuman or Degrading
Treatment forms of "justice delayed is justice
denied." When a split among the Circuits raises an
important question of law, affecting sovereign
American national republics across the Nation, this
Court should, in all fairness and justice, resolve the
conflict. Dual American national republics should not
have to wonder what the law allows when they seek
to vindicate their statutory and constitutional rights.
CONCLUSION
For the foregoing reasons, this Court should
reconsider this case and grant the writ of certiorari.
Respectfully Submitted
Achashverosh Adnah Ammiyhuwd
Sovereign immune Transient Foreigner
In c/o 2700 Valparaiso St. P.O. Box 1542
Non-Domestic-without U.S., 28 U.S.C. 1746
Valparaiso, Indiana, Zip Code Exempt
[DMM 602 1.3e (2)
Real Land North America
Phone: 443-350-4567
Email: Achashverosh@hotmail.com
November 2019

CERTIFICATE OF PARTY
UNREPRESENTED BY COUNSEL

I hereby certify that this petition for rehearing is
presented in good faith and not for delay, and that it
is restricted to the grounds specified in Supreme
Court Rule 44.2.

By /s/

za%

Achashverosh Adnah Ammiyhuwd

%cued

IN THE SUPREME COURT OF THE
UNITED STATES
CERTIFICATE OF COMPLIANCE
No. 19- 236
Achashverosh Adnah Ammiyhuwd,
Petitioner,
-againstMICHAEL RICHARD POMPEO,
U.S. SECRETARY OF STATE et al,
Respondent(s).
CERTIFICATE OF COMPLIANCE WITH RULE 33.1(g)
I, transient foreigner Achashverosh Adnah Ammiyhuwd, a chief biblical
Ambassador from the biblical Southern nation/state tribes of Judah (Yahadah), Sui
Juris, propria persona, In rerum natura, and sui generis declare, certify, verify, or
state under penalty of perjury, under the laws of the United States of America
several states of the union pursuant to 28 U.S. Code § 1746(1), that, according to
the word-count tool in Microsoft Word, the petition for Rehearing in Support of
Petitioner consists of 1, 877 words, including footnotes and excluding the sections
enumerated by Rule 33. 1(d). The Petitioner for Rehearing therefore complies with
Rule 33. 1(g).
Respectfully Executed on the 12, day of November 2019.

By
Achashverosh Adnah Ammiyhuwd
Transient Foreigner
In c/o 2700 Valparaiso St. P.O. Box 1542
Non-Domestic-without US, 28 U.S.C. § 1746(1)
Valparaiso, Indiana, Zip Code Exempt [DMM 602 1.3e (2)]
Real Land North America
Phone: 443-350-4567
Email: Acha_shverash@hotmalcom

CERTIFICATE OF SERVICE
I certify that three copies of Certificate of Compliance and the petition for rehearing were
mailed to Noel J. Francisco by United States Postal Service on November 12, 2019.
Noel J. Francisco,
United States "Advocate" Solicitor
General counsel of record for Respondents
Room 5616, Department of Justice
950 Pennsylvania Ave., N.W
Washington, DC 20530-0001
Phone: (202) 514-2217

Cc.
Human Rights Committee (CCPR)
405 East 42nd Street
New York, NY, 10017
Tel: (212) 968-1234
405 East 42nd Street
Committee against Torture (CAT)
405 East 42nd Street
New York, NY, 10017
Tel: (212) 968-1234
Committee on the Elimination of Racial
Discrimination (CERD)
405 East 42nd Street
New York, NY, 10017
Tel: (212) 968-1234
Luis Almagro OAS General Secretary
Organization of American States (OAS)
17th Street and Constitution Ave., NW.
Washington, DC 20006-4499
Fax: (202) 458-3967
Email: mbustillo@oas.org

By:\
Achashverosh Adnah Ammiyhuwd
Transient Foreigner
In c/o 2700 Valparaiso St. P.O. Box 1542
Non-Domestic-without US, 28 U.S.C. § 1746(1)
Valparaiso, Indiana, Zip Code Exempt
[DMM 602 1.3e (2)]
Phone: 443-350-4567
Email: Achashverosh@hotmail.com
Fatou Bensouda, Prosecutor
International Criminal Court
Office of the Prosecutor
Communications
Post Office Box 19519
2500 CM The Hague
The Netherlands
otp.informationdesk@icc-cpi.int
Fax +31 70 515 8555

